No.

In tf)£ Supreme Court of tfje fHruteb States
In re Brian E. Vodicka
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF TEXAS
PROOF OF SERVICE
I, Brian E. Vodicka, do swear or declare that on this date, October 29, 2020, as
required by Supreme Court Rule 29 I have served the enclosed Motion For Leave to
Proceed In Forma Pauperis and Petition for a Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Honorable Donald J. Cosby
67th District Court
100 North Calhoun Street
Fort Worth, Texas 76196
Tel: 817-884-1452
Stephen C. Schoettmer
Law Office of Stephen C. Schoettmer
4305 West Lovers Lane
Dallas, Texas 75209
Tel: 214-228-8792
Counsel of Record for Respondent Michael B. Tobolowsky,
Executor of the Estate of Ira E. Tobolowsky

RECEIVED

NOV - 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

Steven B. Aubrey
2601 NW 3rd Ave.
Wilton Manors, Florida 33311
Tel: 512-666-8004
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 29, 2020.

Brian E. Vodicka

2

